Audit Report




OIG-11-069
SAFETY AND SOUNDNESS: Material Loss Review of Greater
Atlantic Bank
May 16, 2011




Office of
Inspector General
Department of the Treasury
Contents



Memorandum for the Acting Director, Office of Thrift Supervision


Section I   Crowe Horwath LLP’s Report on the Material Loss Review of
            Greater Atlantic Bank


Section II Report Distribution
This page intentionally left blank.
                                           DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                       May 16, 2011




            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                       Jeffrey Dye /s/
                                        Director, Banking Audits

            SUBJECT:                    Material Loss Review of Greater Atlantic Bank


            INTRODUCTION

            The Office of Thrift Supervision (OTS) closed Greater Atlantic Bank (Greater
            Atlantic), Reston, Virginia, and appointed the Federal Deposit Insurance Corporation
            (FDIC) as receiver on December 4, 2009. As of September 3, 2010, FDIC
            estimated that Greater Atlantic’s loss to the Deposit Insurance Fund was $38
            million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of Greater Atlantic. 1 To help fulfill
                                                                                              F   F




            this responsibility, we contracted with Crowe Horwath LLP, an independent
            certified public accounting firm. Crowe Horwarth’s report dated April 21, 2011, is
            provided as Section I.

            RESULTS OF MATERIAL LOSS REVIEW

            We concur with Crowe Horwath’s reported conclusions regarding Greater Atlantic’s
            causes of failure and OTS’s supervision of Greater Atlantic:

                •   Greater Atlantic failed primarily because of (1) an inability to generate
                    sufficient and consistent core earnings from banking operations; (2) reliance
                    on wholesale funding sources such as Federal Home Loan Bank advances;
                    (3) commercial lending, including commercial construction, commercial real
            1
             At the time of Greater Atlantic’s failure, section 38(k) defined a loss as material if it exceeded the
            greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section
            38(k defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150
            million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter
            (with a provision that the threshold be raised temporarily to $75 million under certain conditions).
Page 2

        estate, and land development loans, which caused greater risk exposure and
        ultimately higher level of loan losses; and (4) significant decline in value of
        its investment portfolio. Net losses and management’s inability to generate
        sufficient earnings from core banking operations caused capital levels to
        erode. This, combined with the thrift’s inability to consummate the sale of
        the bank, prompted the OTS to close the thrift.

    •   OTS identified Greater Atlantic’s inability to generate sufficient core earnings
        from thrift operations but decided not to pursue enforcement action in 2007
        because of a proposed sale of Greater Atlantic to another bank. Ultimately,
        the sale failed because of Greater Atlantic’s mounting losses and financial
        declines in the potential acquiring institution. Only then did OTS take
        enforcement action against the thrift by issuing an Order to Cease and Desist
        on April 25, 2008.

Details of Crowe Horwath’s conclusions are contained in their report.

We also concur with Crowe Horwath’s reported recommendation that:

    •   OTS ensure that issues which have been previously included in informal
        enforcement actions and have not been adequately addressed by thrift
        management be elevated to formal enforcement actions according to OTS
        policy. This is especially important for thrifts that have had CAMELS 2                F   F




        components downgraded to a rating of 4, and where previous informal
        actions were issued and not fully addressed.

Please be advised that in accordance with Treasury Directive 40-03, “Treasury
Audit Resolution, Follow-up, and Closure,” OTS is responsible for taking corrective
action on this recommendation. OTS should also record the recommendation and
related actions in the Department of the Treasury’s Joint Audit Management
Enterprise System (JAMES).

OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38(k), we are responsible to prepare a report to OTS that
(1) ascertains why Greater Atlantic’s problems resulted in a material loss to the
Deposit Insurance Fund; (2) reviews OTS’s supervision of the institution, including
its implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future.


2
 CAMELS is an acronym for performance rating components for financial institutions: capital
                                                                                       U   U




adequacy, asset quality, management, earnings, liquidity, and sensitivity to market risk. Numerical
          U   U          U   U         U   U     U   U        U   U




values range from 1 to 5, with 1 being the best rating and 5 being the worst.
Page 3

To assist us in fulfilling this responsibility, we contracted with Crowe Horwath to
perform a material loss review in accordance with generally accepted government
auditing standards. We evaluated the nature, extent, and timing of the work;
monitored progress throughout the audit; reviewed the documentation of Crowe
Horwath; met with its principals and staff; evaluated the key judgments; met with
OTS officials; performed independent tests of OTS supervisory records; and
performed other procedures we deemed appropriate in the circumstances. We
conducted our work in accordance with generally accepted government auditing
standards.

Should you wish to discuss the report, you may contact me at (202) 927-0384.
This page intentionally left blank.
                  Section I

    Crowe Horwath LLP’s Report on the
Material Loss Review of Greater Atlantic Bank
This page intentionally left blank.
Greater Atlantic Bank
Material Loss Review
Safety and Soundness Performance Audit
April 21, 2011
Contents
Crowe Horwath LLP Audit Report ....................................................... 1

   Results in Brief .............................................................................................. 2

   Causes of Greater Atlantic Bank’s Failure..........................................................             3
        Insufficient Core Earnings from Bank Operations .......................................                    3
        Reliance on Higher Cost Wholesale Funding Sources .................................                        6
        Commercial Lending ..............................................................................          7
        Decline in Value of Certain Investment Securities .....................................                    8

   OTS’s Supervision of Greater Atlantic Bank. ................................................. 8
        Summary of OTS’s Greater Atlantic Supervisory Actions ....................... 9
        A Strong Supervisory Response to Address Greater Atlantic’s Earnings and
           Capital Issues was Warranted in 2005 ............................................ 9
        Prompt Corrective Action Used Appropriately ....................................... 12

   Recommendations ...................................................................................... 13

Appendices

   Appendix     1:      Objectives, Scope, and Methodology ....................................                  15
   Appendix     2:      Background .......................................................................       18
   Appendix     3:      Glossary ...........................................................................     22
   Appendix     4:      Management Response .......................................................              27

Abbreviations

   C&D                  Cease and desist
   FDIC                 Federal Deposit Insurance Corporation
   FHLB                 Federal Home Loan Bank
   FRB                  Federal Reserve Board
   MRBA                 Matters requiring board attention
   OTS                  Office of Thrift Supervision
   PCA                  Prompt corrective action
   ROE                  Report of examination




                        Material Loss Review of Greater Atlantic Bank                                          Page i
Inspector General
Department of the Treasury

RE: Transmittal of Results for the Material Loss Review Report for
Greater Atlantic Bank, Reston, Virginia.

This letter is to acknowledge delivery of our performance audit
report of the Material Loss Review for Greater Atlantic Bank
(Greater Atlantic). The objectives of this performance audit were
to: (1) determine the causes of Greater Atlantic’s failure and
resulting material loss to the Deposit Insurance Fund and
(2) evaluate the Office of Thrift Supervision’s (OTS) supervision of
Greater Atlantic, including implementation of the prompt corrective
                                                  U




action (PCA) provisions of section 38.
        U




The results are in the accompanying audit report. The information
included in this report was obtained during our fieldwork which
occurred during the period from March 2010 through June 2010.

We conducted our performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We also included several appendices to this report. Appendix 1
contains a more detailed description of our material loss review
objectives, scope and methodology. Appendix 2 contains
background information on Greater Atlantic and OTS’s thrift
supervision processes. Appendix 3 is a glossary of terms used in
this report. The terms defined in the glossary are underlined the
first time they are used in the report.

Fort Lauderdale, Florida
April 21, 2011




Material Loss Review of Greater Atlantic Bank               Page 1
Results in Brief
               Greater Atlantic failed primarily because of (1) an inability to
               generate sufficient and consistent core earnings from banking
               operations; (2) reliance on wholesale funding sources such as
               Federal Home Loan Bank advances; (3) commercial lending,
               including commercial construction, commercial real estate, and land
                                                               U          U




               development loans, which caused greater risk exposure and
               ultimately higher level of loan losses; and (4) significant decline in
               value of its investment portfolio. As the condition of the thrift
               deteriorated, Greater Atlantic faced restrictions on its ability to
               restructure its business model due to limitations on issuing new
               loans and limitations on its ability to access alternative funding
               sources. The thrift was also unable to adequately reduce costs
               associated with its operations. Net losses and management’s
               inability to generate sufficient earnings from core banking
               operations caused capital levels to erode. This, combined with the
               thrift’s inability to consummate the sale of the bank, prompted the
               OTS to close the thrift.

               Our audit found that OTS identified Greater Atlantic’s inability to
               generate sufficient core earnings from thrift operations but did not
               escalate enforcement action against the thrift until April 25, 2008,
               when an Order to Cease and Desist became effective. OTS decided
               not to pursue enforcement action in 2007 because of a proposed
               sale of Greater Atlantic to another bank. Ultimately, the sale failed
               because of Greater Atlantic’s mounting losses and financial
               declines in the potential acquiring institution. Based on
               documentation within the reviewed reports of examination (ROEs),
               OTS identified significant problems including the lack of
               management’s ability to implement corrective actions, the poor
               financial condition of the thrift and the erosion of its capital
               position. However, OTS did not take a formal enforcement action
               like issuing a formal agreement until the anticipated sale failed.
                                U                      U




               We are recommending that the Director of OTS, in accordance with
               OTS policy, ensure that issues which have been previously
               included in informal enforcement actions and have not been
               adequately addressed by thrift management be elevated to formal
               enforcement action.



               Material Loss Review of Greater Atlantic Bank                  Page 2
Causes of Greater Atlantic Bank’s Failure
              Greater Atlantic failed because it was unable to generate stable and
              consistent core earnings. The thrift relied on earnings from its
              mortgage subsidiary through 2004 and was never able to diversify
              its revenue streams to generate sufficient earnings from other
              sources. Once the thrift’s mortgage subsidiary discontinued
              operations in 2005 due to continued losses, it was unable to
              develop a sufficient net interest margin to operate profitably. In
              addition, Greater Atlantic recognized a loss from closing the
              mortgage subsidiary and additional costs related to the failed
              attempts to sell the thrift, all of which depleted capital.
              Management’s attempts to increase its interest margin and stem
              continued losses caused thrift management to increase the risk
              profile in the lending portfolio. This coincided with management
              actively shrinking assets to attempt to maintain adequate capital
              levels. Greater Atlantic’s strategy was unsuccessful, and
              management was advised by the OTS to sell the thrift. When no
              viable acquirers could be identified and no viable alternative plans
              to increase capital were available, failure became inevitable.

              Insufficient Core Earnings from Bank Operations

              In 2003 and 2004, the thrift relied heavily on earnings from its
              mortgage banking operations to sustain operations. Greater Atlantic
              was unable to generate sufficient net interest income to cover
              operating overhead when revenue from the mortgage banking
              operations was eliminated in 2005. Figure 1 details Greater
              Atlantic’s net income (loss) from fiscal 2003 to fiscal 2009.
              Greater Atlantic’s positive net income in 2007 was primarily due to
              the sale of a branch at a gain of $4.26 million.




              Material Loss Review of Greater Atlantic Bank              Page 3
Figure 1 - Greater Atlantic’s Net Income (loss) from fiscal 2003 through fiscal
2009 (in millions)

                           Net income (loss)                    Net income (loss)


                                                                  2003,  $3.0


                                                                   2004,  ($2.4)


                                                                   2005,  ($0.8)


                                                                   2006,  ($4.2)


                                                                   2007,  $1.8 


                                                                  2008,  ($10.1)


                                                                  2009 ,  ($7.7)


   $(15.0)      $(10.0)      $(5.0)        $‐           $5.0 

Source: - Greater Atlantic’s Thrift Financial Reports (TFR)
                              U                     U




As losses continued, Greater Atlantic’s management reduced the
thrift’s assets to bolster capital ratios; however, general and
administrative expenses did not decrease proportionally to the
decrease in assets. Greater Atlantic consistently operated with
higher non-interest expenses, as a percentage of average assets.
Figure 2 identifies Greater Atlantic’s non-interest expense trends
compared to peers from 2004 through 2009.




Material Loss Review of Greater Atlantic Bank                                   Page 4
Figure 2 – Comparison of Greater Atlantic’s Non-interest Expenses to Average
Assets from 2004 through September 2009 to Peer Group Medians. (Non-interest
Expenses noted in percent)
  6.0%

  5.0%

  4.0%

  3.0%                                                 Greater Atlantic Bank
                                                       Peer Group
  2.0%

  1.0%

  0.0%
         2004   2005    2006   2007   2008 Sep‐09


Source: - Uniform Thrift Performance Reports (UTPR) for Greater Atlantic

   The thrift’s net interest income as a percentage of average assets
   from 2003 through 2008 ranged between a low of 1.53 percent in
   2004 and a high of 2.61 percent in 2006. Management and the
   board were not able to develop and execute a strategy to generate
   a net interest margin sufficient to cover operating costs and
   positively contribute to the thrift’s capital. Figure 3 notes the year
   to year net interest margin trend compared to its peer group.




   Material Loss Review of Greater Atlantic Bank                           Page 5
Figure 3 – Comparison of Greater Atlantic’s Net Interest Income/Average Assets
by Year to Peer Group (Net-interest Income noted in percent)


    4.5%
    4.0%
    3.5%
    3.0%
    2.5%
                                                             Greater Atlantic Bank
    2.0%
                                                             Peer Group
    1.5%
    1.0%
    0.5%
    0.0%
           2004   2005   2006   2007       2008 Sep‐09


Source: - UTPRs for Greater Atlantic

Greater Atlantic’s earnings were also negatively impacted during
the periods reviewed (2003 through 2009) due to various
accounting transactions that included (1) in 2006, $1.3 million in
write-offs associated with the closed mortgage banking subsidiary;
and (2) in 2008, $2.7 million for the recognition of goodwill
impairment ($1.0 million) and recognition of a deferred tax asset
U             U                                          U                           U




valuation allowance ($1.7 million).

Once management decided to pursue a sale of the thrift during
2006, operating expenses were also impacted due to charges
related to the pursuit of the sale.

Reliance on Higher Cost Wholesale Funding Sources

Greater Atlantic utilized higher cost Federal Home Loan Bank
(FHLB) borrowings and other wholesale funding as a portion of its
                                       U                     U




funding structure. As shown in Figure 4, the reliance on higher cost
wholesale funding sources caused Greater Atlantic to have a higher
interest expense as a percentage of average assets compared to its
peers.




Material Loss Review of Greater Atlantic Bank                                Page 6
Figure 4 – Comparison of Greater Atlantic’s Interest Expense/Average Earning
Assets by Year to Peer Group (Interest Expense noted in percent)

  4.5%
  4.0%
  3.5%
  3.0%
  2.5%
                                                       Greater Atlantic Bank
  2.0%
                                                       Peer Group
  1.5%
  1.0%
  0.5%
  0.0%
          2004    2005   2006   2007   2008 Sep‐09

Source: UTPRs for Greater Atlantic

In 2000, management obtained long-term, fixed-rate FHLB
borrowings. As market interest rates later declined, the fixed rate
structure of these advances did not allow the cost of funds to
decline in line with the decline in interest income. This borrowing
negatively impacted the thrift’s net interest margin. While Greater
Atlantic actively decreased its use of borrowings from 35.6 percent
of total deposits and borrowings at the end of fiscal 2003 to 14.9
percent at the end of fiscal 2008, the related interest costs on the
borrowings remained a high percentage of the overall cost of
funds. For fiscal 2008, interest expense for FHLB and other
borrowings represented 19.4 percent of total interest expense.
Greater Atlantic’s inability to reprice these wholesale funding
sources contributed to Greater Atlantic’s lower net interest margin
during the periods reviewed (2003 through 2009).

Commercial Lending

After Greater Atlantic discontinued its mortgage banking operations
and actively reduced the bank’s assets, its level of commercial-
related lending (including multi-family, construction, commercial
real estate, land and commercial business) became a greater
proportion of its overall lending portfolio. Commercial-related loans


Material Loss Review of Greater Atlantic Bank                          Page 7
              totaled 36 percent of total loans at September 30, 2003, and
              increased to as high as 50.3 percent in 2007. Commercial lending
              generally exposes a lender to a greater risk of non-payment and
              loss than one-to-four family residential loans because repayment of
              the loans often depends on the successful operation of the
              property and the income stream of the borrower. Ultimately the
              increased level of commercial lending and resulting increase in risk
              resulted in an increase in charge-offs from $1.0 million in fiscal
              2003 to $3.1 million in fiscal 2008, and $1.8 million of charge-offs
              in fiscal 2009 (through June 30). Of the $3.1 million in charge-offs
              in fiscal 2008, $3.0 million were related to commercial business
              and commercial real estate lending. These charge-offs further
              eroded Greater Atlantic’s capital.

                  Decline in Value of Certain Investment Securities

                  Greater Atlantic’s investment portfolio, which consisted primarily
                  of corporate debt, non-agency collateralized mortgage obligations,
                  and agency mortgage backed securities, also experienced
                  significant decline in fair market value. Beginning in 2007 and
                  continuing into 2009, the investment portfolio declined as the
                  broader economic market value of these securities fell and the
                  economy stagnated. While most securities reflected a decline in
                  value, the decline in value of the corporate debt securities and
                  collateralized mortgage obligations was most significant. At
                  September 30, 2009, the decline in value of the securities was
                  $4.3 million. As of that date, however, Greater Atlantic had not
                  determined whether an other than temporary impairment existed
                  and therefore had not reflected any of the declines in the value of
                  the investment portfolio in its earnings.


OTS’s Supervision of Greater Atlantic Bank
              Despite having identified poor earnings and capital issues at
              Greater Atlantic as early as 2004, OTS did not issue a formal
              enforcement action until the 2008 ROE. Greater Atlantic received
              CAMELS composite ratings of 3 in 2004 and 2005. The thrift was
              U           U




              downgraded to a CAMELS composite rating of 4 during the 2006
              examination, along with component ratings of 4 for both capital
              and earnings, without any formal enforcement action being taken.



              Material Loss Review of Greater Atlantic Bank                   Page 8
         Based on the 2004 and 2005 examinations resulting in two
         consecutive CAMELS composite ratings of 3 and the 2006
         examination resulting in a CAMELS composite rating of 4, there
         was adequate reason for earlier formal enforcement action.

         Summary of OTS’s Greater Atlantic Supervisory Actions

         Table 1 summarizes the results of OTS’s safety and soundness and
                                                         U                       U




         limited examinations from 2003 until its closure. Matters requiring
                                                                  U




         board attention (MRBA) represent the most significant items
                            U




         reported in ROEs requiring corrective action.

Table 1. Summary of OTS’s Examinations and Enforcement Actions for Greater Atlantic
                                              Examination Results
                                                         Number of
 Date started/ Assets                          Number of corrective   Enforcement
 completed     (in        CAMELS rating        MRBAs     actions      actions
 2/24/2003
                   $529         2/222321    -            3          None
 4/11/2003
 5/3/2004
                    $396             3/323332     3          11       None
 6/10/2004
 7/25/2005
                    $365             3/323332     1          4        Board resolution
 9/07/2005
 10/30/2006
                    $305             4/423432     5          11       None
 3/9/2007
 5/19/2008                                                            Consent Order
                    $231             4/433532     1          5
 8/27/2008                                                            dated 4/25/08

                                                                      PCA Directive
 5/22/2009           N/A             5/533532     -          -
                                                                      dated 5/22/09

 9/21/2009
                     N/A             5/544533     3          7        None
 11/13/2009


         A Strong Supervisory Response to Address Greater Atlantic’s
         Earnings and Capital Issues was Warranted in 2005

         We concluded that a stronger OTS supervisory response was
         warranted in 2005 to address the earnings concerns that were
         recognized by the examiners as early as 2003. Greater Atlantic’s
         earnings received a CAMELS component rating of 3 in 2003,
         2004, and 2005. As additional component ratings also fell to a 3,
         the OTS issued composite ratings of 3 for Greater Atlantic’s 2004


         Material Loss Review of Greater Atlantic Bank                       Page 9
                     and 2005 examinations. The 2006 examination resulted in Greater
                     Atlantic receiving a CAMELS composite rating of 4 including
                     ratings of 4 for the capital and earnings components.

                     After the second consecutive composite 3 rating, the OTS field
                     manager met with the board in September 2005 and encouraged
                     the thrift to pursue a sale if it could not correct operating
                     deficiencies in the near term. In addition, the OTS regional
                     supervisory action committee met in November 2005 and agreed
                     on the informal enforcement action of a board resolution for the
                                                                     U                U




                     need for an expeditious decision on the sale of the bank, a plan for
                     recapitalization, and/or a new management team. 3 We found no
                                                                              F   F




                     evidence that the OTS considered taking formal enforcement action
                     as a result of the 2005 examination. At its March 2006 board of
                     directors meeting, the board executed a resolution authorizing and
                     directing actions to determine the level of interest in engaging in a
                     potential merger or acquisition of the company. In addition, the
                     board of director’s minutes identified that the board was
                     concurrently exploring recapitalization options.

                     The OTS Examination Handbook Section 80 indicates that there is
                     a presumption that savings associations with a composite rating of
                     3 for the latest safety and soundness examination warrant formal
                     enforcement action under any of the following circumstances:

                         •   Management is weak.
                         •   There is uncertainty as to whether management and the
                             board have the ability or willingness to take appropriate
                             corrective measures.
                         •   Conditions are rapidly deteriorating.
                         •   A 3-rating continues for two consecutive examinations
                             following the thrift entering into the informal enforcement
                             action, unless the thrift complies with the informal
                             enforcement action and no new grounds exist for taking a
                             formal action.

                     The above guidance supports that formal enforcement action was
                     warranted in 2005 given the two consecutive CAMELS composite

3
 Committee includes senior management officials of the OTS region who determine if and when formal
enforcement action will be taken. OTS order 96-72 delegated the authority to execute supervisory
agreements to regional directors.


                     Material Loss Review of Greater Atlantic Bank                        Page 10
ratings of 3 and the indication that OTS determined management
to be weak, since the regional supervisory action committee
suggested the board consider replacing the management team.
Prior to the second composite 3 rating in 2005, the OTS had used
MRBAs to seek correction of both the capital and earnings issues
without success.

The OTS further downgraded the earnings component rating to a 4
in 2006, citing various issues such as:

    •       Net interest margin was insufficient to cover the
            thrift’s operational expenses.
    •       continued losses and high expenses despite the sale of
            thrift branches in 2005.
    •       net loss resulting from final disposition costs
            associated with discontinuing the mortgage banking
            operations in March 2006.
    •       high general and administrative costs attributed to high
            legal, office occupancy, and marketing expenses.

In addition, in 2006 examiners noted concerns in regard to capital
including concern over continued capital deterioration from
operating losses and the overall level of capital based on the
increase in higher risk loans. At September 30, 2006, Greater
Atlantic’s capital fell below well capitalized to adequately
capitalized. OTS noted that capital was insufficient given the
thrift’s risk level. As such, OTS downgraded the capital component
rating to a 4 as well, and restricted Greater Atlantic from paying
dividends in 2007 based on concerns over regulatory capital levels.

OTS also downgraded the CAMELS composite rating to a 4 as a
result of the 2006 examination. Despite downgrading capital,
earnings and the overall composite ratings to 4 in 2006, OTS
personnel stated that a formal enforcement action was not issued
because of the negative impact a formal, public enforcement action
could have on the active merger negotiations between Greater
Atlantic and another financial institution. The OTS regional
supervisory action committee met on April 3, 2007, and decided to
give Greater Atlantic until April 23, 2007, to secure a definite
agreement from the potential purchaser or face a cease and desist
                                                   U




order (C&D). The definitive agreement was obtained; however, the
        U




Material Loss Review of Greater Atlantic Bank              Page 11
                         potential purchaser terminated the agreement in April 2008
                         because of Greater Atlantic’s mounting losses and financial
                         declines in the potential acquiring institution. OTS promptly
                         executed a C&D on April 25, 2008.

                         OTS policy 4 allows for discretion in the taking of enforcement
                                       F   F




                         actions with authorization by senior management. In this case, the
                         enforcement approach toward Greater Atlantic was approved by
                         the regional supervisory action committee in accordance with
                         policy. While the formal enforcement action was delayed due to
                         the pending sale, we conclude that OTS senior management used
                         its enforcement discretion in an appropriate manner in 2007.

                         Prompt Corrective Action Used Appropriately

                         The purpose of PCA is to resolve the problems of insured
                         depository institutions at the least possible long-term loss to the
                         Deposit Insurance Fund. PCA provides federal banking agencies
                         with the authority to take certain actions when an institution’s
                         capital drops to certain levels. PCA also gives regulators flexibility
                         based on criteria other than capital to help reduce deposit
                         insurance losses caused by unsafe and unsound practices. For
                         example, OTS’s Enforcement Action Policy allows for the imposing
                         of more severe limitations than a thrift’s PCA capital category
                         would otherwise permit or require if it is determined that the thrift
                         is operating in an unsafe or unsound condition or engaging in
                         unsafe or unsound practices.

                         Greater Atlantic’s capital levels fell from well capitalized to
                         adequately-capitalized based on the September 30, 2006 TFR. The
                         thrift’s reduction in capital was identified in OTS’s October 2006
                         ROE. OTS issued a notice on February 15, 2007, notifying Greater
                         Atlantic that it was considered adequately capitalized. Based on
                         Greater Atlantic’s TFR data reported from September 2007 to
                         March 2008, its capital category returned to well capitalized
                         primarily due to shrinking assets. Based on the TFR filed for
                         June 30, 2008, Greater Atlantic’s capital ratios reflected the thrift
                         returning to adequately capitalized.



4
    Office of Thrift Supervision Bulletin RB 32-28 “Enforcement Actions”


                         Material Loss Review of Greater Atlantic Bank                Page 12
We concluded that OTS took the following appropriate PCA in a
timely manner as the thrift’s capital levels subsequently fell below
adequately capitalized. Those actions, however, did not prevent
Greater Atlantic’s failure.

    •   OTS placed Greater Atlantic under a C&D effective April 25,
        2008, indicating, among other things, a requirement to
        maintain a Tier 1 capital ratio of 6 percent and total risk-
                                                             U




        based capital ratio of 12 percent.
                           U




    •   Greater Atlantic’s quarterly capital ratios for December 2008
        reflected the institution being undercapitalized. OTS notified
        the institution on February 10, 2009, that it was considered
        undercapitalized and required the bank to submit an
        acceptable capital restoration plan.
                       U                        U




    •   Greater Atlantic was considered significantly
        undercapitalized as of March 31, 2009, based on its TFR
        filed April 30, 2009. OTS notified Greater Atlantic on
        May 11, 2009, that it was considered significantly
        undercapitalized.
    •   Greater Atlantic was considered critically undercapitalized as
        of September 15, 2009. In May 2009, OTS issued a
        Stipulation and Consent to a PCA which was executed by
        the thrift on November 20, 2009, and which required the
        thrift:

        1. Recapitalize by merging with or be acquired within
           10 days.
        2. Achieve and maintain minimum capital ratios.
        3. Make all diligent and good faith efforts to increase
           the thrift’s capital and find another financial
           institution to recapitalize the bank through merger.
        4. Submit a weekly report from the Board of Directors to
           OTS and FDIC on these efforts and any potential
           candidate for merger.
        5. If the thrift becomes critically undercapitalized, fully
           cooperate with the FDIC to avoid a loss and minimize
           exposure to the insurance fund.
        6. Authorize FDIC to market the thrift to prospective
           acquirers.
        7. Prepare a weekly written report related to its compliance
           with the PCA and submit the report to OTS.


Material Loss Review of Greater Atlantic Bank               Page 13
                    8. Adhere to various other restrictions on the conduct of its
                       day to day business operations, including the following.
                       o The thrift will not issue any securities, enter into any
                          agreement to merge, or sell substantially all its assets
                          and liabilities without first notifying the OTS in writing
                          and receiving the OTS’s non-objection.
                       o The thrift will not pay interest on deposits at rates
                          that exceed the prevailing rate of interest on deposits
                          of similar amounts and maturities in the thrift’s local
                          market area.
                       o The thrift will not increase average total assets in the
                          quarter to exceed the average total assets of the
                          previous quarter unless approved by OTS.

               OTS closed Greater Atlantic on December 4, 2009.


Recommendation
           As a result of our material loss review of Greater Atlantic Bank, we
           recommend that the Director of OTS ensure that issues which have
           been previously included in informal enforcement actions and have
           not been adequately addressed by thrift management be elevated
           to formal enforcement actions according to OTS policy. This is
           especially important for thrifts that have had CAMELS components
           downgraded to a rating of 4, and where previous informal actions
           were issued and not fully addressed.

           Management Response
           U




           OTS responded that they concurred with the recommendation. In
           addition, OTS noted that it has issued a revised enforcement action
           policy which has been incorporated in OTS Examinations Handbook
           Section 080. OTS also responded that it has adopted enforcement
           procedures that require all recommendations regarding enforcement
           actions, including recommendations for no further action, be
           brought to the OTS Washington Enforcement Review Committee
           for determination.




           Material Loss Review of Greater Atlantic Bank                  Page 14
Crowe Horwath LLP Comment
U




The implementation of the recommendation is the responsibility of
OTS management.

                         ******************

We appreciate the courtesies and cooperation provided to our staff
during the audit.




Material Loss Review of Greater Atlantic Bank            Page 15
                       Appendix 1
                       Objectives, Scope and Methodology




                       Our objectives were to determine the causes of Greater Atlantic
                       Bank’s (Greater Atlantic) failure and assess its supervision by the
                       Office of Thrift Supervision (OTS). We conducted this material loss
                       review of Greater Atlantic under contract with the Department of
                       the Treasury Office of Inspector General (OIG) in response to its
                       mandate under section 38(k) of the Federal Deposit Insurance Act. 5              F   F




                       This section provides that if a deposit insurance fund incurs a
                       material loss with respect to an insured depository institution, the
                       inspector general for the appropriate federal banking agency is to
                       prepare a report to the agency that:

                       •   ascertains why the institution’s problems resulted in a material
                           loss to the insurance fund;
                       •   reviews the agency’s supervision of the institution, including its
                           implementation of the prompt corrective action provisions of
                           section 38(k); and
                       •   makes recommendations for preventing any such loss in the
                           future.

                       At the time of Greater Atlantic’s failure, section 38(k) defined a
                       loss as material if it exceeds the greater of $25 million or 2 percent
                       of the institution’s total assets. 6 The law also requires the
                                                               F   F




                       inspector general to complete the report within 6 months after it
                       becomes apparent that a material loss has been incurred.

                       The OIG contracted with our firm to conduct this material loss
                       review of Greater Atlantic based on the loss estimated by the
                       Federal Deposit Insurance Corporation (FDIC). As of September 3,
                       2010, FDIC estimated that the loss to the Deposit Insurance Fund
                       from Greater Atlantic’s failure would be $38 million.

                       To accomplish our audit, we conducted fieldwork at OTS’s
                       Southeast Regional Office in Atlanta, GA; and at FDIC’s satellite
                       office located in Jacksonville, FL. We also interviewed officials of
                       FDIC’s Division of Supervision and Consumer Protection, contract
                       personnel at FDIC’s Division of Resolutions and Receivership, and
                                                 U                                             U




5
 12 U.S.C. § 1831o(k).
6
 . P.L. 111-203, signed into law on July 21, 2010, changed the definition of material loss in section
38(k) to any estimated loss in excess of $200 million for a loss occurring in 2010 and 2011, $150
million for a loss occurring in 2012 and 2013, and $50 million for a loss occurring in 2014 or after
(with a provision for a temporary increase to $75 million if certain conditions are met).


                       Material Loss Review of Greater Atlantic Bank                         Page 16
Appendix 1
Objectives, Scope and Methodology




interviewed OTS personnel who worked on the Greater Atlantic
examinations. We conducted our fieldwork from March 2010
through June 2010.

To assess the adequacy of OTS’s supervision of Greater Atlantic,
we determined (1) when OTS first identified the thrift’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the period covered by our audit would be
    from February 24, 2003, through the thrift’s failure on
    December 4, 2009. This period included six full-scope safety
                                                U         U




    and soundness examinations prior to the appointment of FDIC
    as receiver of the thrift on December 4, 2009.
•   We reviewed OTS’s supervisory files and records for Greater
    Atlantic from 2003 through 2009. We analyzed examination
    reports, supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OTS used to assess the thrift’s condition, and
    the regulatory action used by OTS to compel thrift management
    to address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.
•   We interviewed and discussed various aspects of the
    supervision of the thrift with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations. We also interviewed FDIC officials who
    were responsible for monitoring Greater Atlantic for federal
    deposit insurance purposes.
•   We selectively reviewed Greater Atlantic’s documents that had
    been taken by FDIC and inventoried by FDIC Division of
    Resolutions and Receivership personnel. We identified from
    FDIC’s inventory list those documents for our review that were
    most likely to shed light on the reasons for the thrift’s failure


Material Loss Review of Greater Atlantic Bank                 Page 17
Appendix 1
Objectives, Scope and Methodology




    and OTS’s supervision of the institution based on review of
    FDIC’s description of documents in inventory.
•   We assessed OTS’s actions based on its internal guidance and
    the requirements of the Federal Deposit Insurance Act, as
    amended by 12 U.S.C. § 1820(d).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Greater Atlantic Bank              Page 18
                       Appendix 2
                       Background




                       Greater Atlantic Bank History

                       Greater Atlantic Bank (Greater Atlantic) was established by charter
                       as Greater Baltimore Savings and Loan Association in Baltimore,
                       Maryland, on May 27, 1988. On May 31, 1989, Greater Baltimore
                       Savings and Loan Association converted from a state savings bank
                       to a federal savings bank. The bank operated as such until June
                       1997 when Greater Atlantic Financial Corporation was formed as a
                       savings and loan holding company and conducted substantially all
                       of their business through its wholly-owned subsidiary, Greater
                       Atlantic, a federally-charted savings bank. Greater Atlantic offered
                       traditional banking services through its branch network located in
                       the greater Washington D.C. metropolitan area. Greater Atlantic
                       grew total assets to $529 million at December 31, 2003, but
                       intentionally shrank its asset size and had assets of $203 million at
                       September 30, 2009.

                       Types of Examinations Conducted by OTS

                       OTS conducts various types of examinations, including safety and
                       soundness, compliance, and information technology.
                                      U              U




                       OTS conducts full-scope examinations of insured thrifts once every
                       12 or 18 months. 7 During a full-scope examination, examiners
                                             F   F




                       conduct an onsite examination and rate all CAMELS components.
                       OTS then assigns the thrift a CAMELS composite rating based on
                       its assessment of the overall condition and level of supervisory
                       concern.

                       OTS uses the 12-month cycle until the thrift’s management has
                       demonstrated its ability to operate the institution in a safe and
                       sound manner and has satisfied all conditions imposed at the time
                       of its charter approval. OTS examined Greater Atlantic on the
                       12-month cycle.


7 18-month examination interval applies to insured thrifts that have total assets of $500 million or less
that (1) received a CAMELS composite rating of 1 or 2 and a Compliance rating of 1 or 2 for their most
recent examination;(2) received a CAMELS management component rating of 1 or 2 for their most
recent examination;(3) are well-capitalized, (4) are not currently subject to a formal enforcement
proceeding or order by OTS or the Federal Deposit Insurance Corporation; and (5) have not undergone a
change in control during the 12-month period since completion of the last full-scope examination.


                       Material Loss Review of Greater Atlantic Bank                          Page 19
Appendix 2
Background




Enforcement Actions Available to OTS

OTS performs various examinations of thrifts that result in the
issuance of reports of examinations (ROE) identifying areas of
concern. OTS uses informal and formal enforcement actions to
address violations of laws and regulations and to address unsafe
and unsound practices.

Informal Enforcement Actions
U




When a thrift’s overall condition is sound, but it is necessary to
obtain written commitments from a thrift’s board of directors or
management to ensure that it will correct identified problems and
weaknesses, OTS may use informal enforcement actions. OTS
commonly uses informal actions for problems in well- or
adequately-capitalized thrifts and thrifts with a composite rating of
1, 2, or 3.

Informal actions notify a thrift’s board and management that OTS
has identified problems that warrant attention. A record of informal
action is beneficial in case formal action is necessary later.

If a thrift violates or refuses to comply with an informal action,
OTS cannot enforce compliance in federal court or assess civil
money penalties for noncompliance. However, OTS may initiate
more severe enforcement action against a noncompliant thrift. The
effectiveness of informal action depends in part on the willingness
and ability of a thrift to correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives,
memoranda of understanding, and board resolutions.

Formal Enforcement Actions
U                                   U




If informal tools do not resolve a problem that has been identified,
OTS is to use formal enforcement tools.

Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a thrift has
significant problems, especially when there is a threat of harm to



Material Loss Review of Greater Atlantic Bank               Page 20
Appendix 2
Background




the thrift, depositors, or the public. OTS is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to secure correction
of safety and soundness or compliance problems. OTS can assess
civil money penalties against thrifts and individuals for
noncompliance with a formal agreement or final orders. OTS can
also request a federal court to require the thrift to comply with an
order. Unlike informal actions, formal enforcement actions are
public.

Formal enforcement actions include cease and desist orders, civil
money penalties, and prompt corrective action directives.

OTS Enforcement Guidelines
U




    Considerations for determining whether to use informal action or
    formal action include:

       •   the extent of actual or potential damage, harm, or loss to the
           thrift because of the action or inaction;
       •   whether the thrift has repeated the illegal action or unsafe or
           unsound practice;
       •   the likelihood that the conduct may occur again;
       •   the thrift’s record for taking corrective action in the past;
       •   the capability, cooperation, integrity, and commitment of the
           thrift’s management, board of directors, and ownership to
           correct identified problems;
       •   the effect of the illegal, unsafe, or unsound conduct on other
           financial institutions, depositors, or the public;
       •   the examination rating of the thrift;
       •   whether the thrift’s condition is improving or deteriorating;
           and
       •   the presence of unique circumstances.

    OTS Assessments Paid by Greater Atlantic

    OTS funds its operations in part through semiannual assessments
    on savings associations. OTS determines each institution’s


Material Loss Review of Greater Atlantic Bank                   Page 21
Appendix 2
Background




assessment by adding together three components reflecting the
size, condition, and complexity of an institution. OTS computes the
size component by multiplying an institution’s total assets, as
reported on its thrift financial report, by the applicable assessment
rate. The condition component is a percentage of the size
component and is imposed on institutions that have a 3, 4, or 5
CAMELS composite rating. OTS imposes a complexity component
if (1) a thrift administers more than $1 billion in trust assets, (2)
the outstanding balance of assets fully or partially covered by
recourse obligations or direct credit substitutes exceeds $1 billion,
U           U                 U                           U




or (3) the thrift services over $1 billion of loans for others. OTS
calculates the complexity component by multiplying set rates by
the amounts by which an association exceeds each threshold.
Table 4 shows the assessments that Greater Atlantic paid to OTS
from 2003 through 2009.

Table 2: Assessments Paid by Greater Atlantic to OTS,
2003-2009

                             Exam
Billing Period               Rating   Amount Paid
1/1/2003 - 6/30/2003              2    $         54,347
7/1/2003 - 12/31/2003             2    $         53,278
1/1/2004 - 6/30/2004              2    $         55,181
7/1/2004 - 12/31/2004             3    $         87,911
1/1/2005 - 6/30/2005              3    $         75,659
7/1/2005 - 12/31/2005             3    $         68,645
1/1/2006 - 6/30/2006              3    $         64,541
7/1/2006 - 12/31/2006             3    $         61,242
1/1/2007 - 6/30/2007              3    $         61,481
7/1/2007 - 12/31/2007             4    $         77,614
1/1/2008 - 6/30/2008              4    $         72,188
7/1/2008 - 12/31/2008             4    $         69,116
1/1/2009 - 6/30/2009              4    $         64,212
7/1/2009 - 12/31/2009             5    $         68,128
    Total                              $        933,543
Source: OTS




Material Loss Review of Greater Atlantic Bank                 Page 22
              Appendix 2
              Background




Table 3: Number of OTS Hours Spent on Examining Greater Atlantic, 2003-2009

              Examination Start Date     Number of Examination Hours*
              2/24/2003                                617
              5/03/2004                                940
              7/25/2005                                801
              10/30/2006                               922
              5/19/2008                                957
              9/21/2009                                954
              Total                                   5191
              Source: OTS
              *Hours are totaled for safety and soundness examinations,
              information technology examinations, and compliance
              examinations.




              Material Loss Review of Greater Atlantic Bank                   Page 23
                    Appendix 3
                    Glossary




Board resolution                    A document designed to address one or more
                                    specific concerns identified by the Office of Thrift
                                    Supervision (OTS) and adopted by a thrift’s board
                                    of directors.

Brokered deposit                    Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. The bank or thrift solicits
                                    deposits by offering rates of interest that are
                                    significantly higher than the rates offered by other
                                    insured depository institutions in its normal market
                                    area. Use of brokered deposits is limited to well-
                                    capitalized insured depository institutions and, with
                                    a waiver from the Federal Deposit Insurance
                                    Corporation (FDIC), to adequately capitalized
                                    institutions.

                                    Undercapitalized institutions are not permitted to
                                    accept brokered deposits. (See 12 U.S.C. §
                                    1831(f) and 12 C.F.R. 337.6.)

CAMELS                              An acronym for performance rating components for
                                    financial institutions: capital adequacy, asset
                                    quality, management, earnings, liquidity, and
                                    sensitivity to market risk. Numerical values range
                                    from 1 to 5, with 1 being the best rating and 5
                                    being the worst.

Capital restoration plan            A plan submitted to the appropriate federal banking
                                    agency by an undercapitalized insured depository
                                    institution. A capital restoration plan specifies the
                                    steps the insured depository institution is to take to
                                    become adequately capitalized, the levels of capital
                                    to be attained during each year in which the plan is
                                    in effect, how the institution is to comply with the
                                    restrictions or requirements then in effect, the
                                    types and levels of activities in which the
                                    institution is to engage, and any other information
                                    that the federal banking agency may require.




                    Material Loss Review of Greater Atlantic Bank                  Page 24
                    Appendix 3
                    Glossary




Cease and desist order              A type of formal enforcement action. A cease and
                                    desist order issued by OTS normally requires the
                                    thrift to correct a violation of a law or regulation,
                                    or an unsafe or unsound practice. OTS may issue a
                                    cease and desist order in response to violations of
                                    federal banking, securities, or other laws by thrifts
                                    or individuals or if it believes that an unsafe and
                                    unsound practice or violation is about to occur.

Commercial real estate loan         A loan for real property where the primary or
                                    significant source of repayment is from rental
                                    income associated with the property or the
                                    proceeds of the sale, refinancing, or permanent
                                    financing of the property. Commercial real estate
                                    loans include construction and real estate
                                    development loans, land development loans, and
                                    commercial property loans (such as for office
                                    buildings and shopping centers).

Compliance                          The part of a financial institution examination that
                                    includes an assessment of how well the institution
                                    manages compliance with consumer protection and
                                    public interest laws and regulations, including the
                                    Bank Secrecy Act.

Direct credit substitute            An institution’s guaranty, purchase, or assumption
                                    of a recourse exposure from another organization.
                                    For example, a purchased subordinated security is
                                    a direct credit substitute.

Deferred tax assets                 Deferred tax assets represent temporary
                                    differences between the book and tax bases of
                                    assets and liabilities at enacted tax rates. A
                                    valuation allowance for deferred tax assets is
                                    recorded to reflect future tax benefits that are not
                                    expected to be realized.

Division of Resolutions             A division within the FDIC that is charged with
and Receiverships                   resolving failing and failed financial institutions,
                                    including ensuring that depositors have prompt
                                    access to their insured funds.



                    Material Loss Review of Greater Atlantic Bank                    Page 25
                   Appendix 3
                   Glossary




Formal agreement                   A type of formal enforcement action authorized by
                                   statute. Formal agreements are generally more
                                   severe than informal actions and are disclosed to
                                   the public. Formal actions are also enforceable
                                   through the assessment of civil money penalties.

Full-scope examination             Examination activities performed during the
                                   supervisory cycle that (1) are sufficient in scope to
                                   assign or confirm an institution’s CAMELS
                                   composite and component ratings; (2) satisfy core
                                   assessment requirements; (3) result in conclusions
                                   about an institution’s risk profile; (4) include onsite
                                   supervisory activities; and (5) generally conclude
                                   with the issuance of a report of examination.

Generally accepted                 A widely accepted set of rules, standards,
accounting principles              and procedures for reporting financial information
                                   established by the Financial Accounting Standards
                                   Board.

Impairment                         Decline in fair value of an asset below the
                                   amortized cost basis.


Matter requiring                   A practice noted during an OTS examination of a
board attention                    thrift that deviates from sound governance, internal
                                   control, and risk management principles. The
                                   matter, if not addressed, may adversely affect the
                                   thrift’s earnings or capital, risk profile, or
                                   reputation or may result in substantive
                                   noncompliance with laws or regulations, internal
                                   policies or processes, supervisory guidance, or
                                   conditions imposed in writing in connection with
                                   the approval of any application or other request by
                                   the institution. Although matters requiring board
                                   attention are not formal enforcement actions, OTS
                                   requires that thrifts address them. A thrift’s failure
                                   to do so may result in a formal enforcement action.

Prompt corrective action           A framework of supervisory actions for insured



                   Material Loss Review of Greater Atlantic Bank                    Page 26
                     Appendix 3
                     Glossary




                                     institutions that are not adequately capitalized. It
                                     was intended to ensure that action is taken when
                                     an institution becomes financially troubled in order
                                     to prevent a failure or minimize resulting losses.
                                     These actions become increasingly severe as an
                                     institution falls into lower capital categories. The
                                     capital categories are well-capitalized, adequately
                                     capitalized, undercapitalized, significantly
                                     undercapitalized, and critically undercapitalized.
                                     (See 12 U.S.C. § 1831o.)

The prompt corrective action minimum requirements are as follows:

                                        Total                 Tier 1/       Tier 1/
              Capital Category          Risk-Based            Risk-         Leverage
                                                              Based
                                      10% or          and 6% or          and 5% or greater
              Well capitalizeda
                                      greater               greater
              Adequately              8% or           and 4% or          and 4% or greater
              capitalized             greater               greater            (3% for 1-rated)
                                      Less            or    Less         or    Less than 4% (except
              Undercapitalized
                                      than 8%               than 4%            for 1-rated)
              Significantly           Less            or    Less         or    Less than 3%
              undercapitalized        than 6%               than 3%
                                      Has a ratio of tangible equity to total assets that is equal
              Critically
                                                       U                U




                                      to or less than 2 percent. Tangible equity is defined in
              undercapitalized
                                      12 C.F.R. § 565.2(f).
              To be well-capitalized, a thrift also cannot be subject to a higher capital
              requirement imposed by OTS.

Recourse                             With respect to financial assets such as loans, the
                                     legal ability of the purchaser of an asset to make a
                                     claim against the seller of the asset if the asset
                                     fails to pay. For example, a loan sold with a
                                     recourse provision would allow the loan’s
                                     purchaser to make a claim against the loan’s seller
                                     in the event of debtor default.

Risk-based capital                   The sum of Tier1 plus Tier 2 capital.

Safety and soundness                 The part of an examination that includes a review
                                     and evaluation of each of the component CAMELS
                                     ratings (see explanation of CAMELS, above).


                     Material Loss Review of Greater Atlantic Bank                        Page 27
                     Appendix 3
                     Glossary




Tangible equity                      Total assets minus intangible assets minus total
                                     liabilities.

Tier 1 capital                       Common shareholder’s equity (common stock,
                                     surplus, and retained earnings), noncumulative
                                     perpetual preferred stock, and minority interests in
                                     the equity accounts of consolidated subsidiaries.

Thrift financial report              A financial report that thrifts are required to file
                                     quarterly with OTS. The report includes detailed
                                     information about the institution's operations and
                                     financial condition and must be prepared in
                                     accordance with generally accepted accounting
                                                            U




                                     principles. The thrift financial report is similar to
                                                  U




                                     the call report required of commercial banks.

Wholesale funding                    Funding obtained by financial institutions through
                                     such sources as federal funds, public funds, FHLB
                                     advances, the Federal Reserve’s primary credit
                                     program, foreign deposits, and brokered deposits.




                     Material Loss Review of Greater Atlantic Bank                   Page 28
          Office of Thrift Supervision
          0B




          Department of the Treasury                                                                 Thomas A. Barnes
                                                     Deputy Director, Examinations, Supervision, and Consumer Protection

          1700 G Street, N.W., Washington, DC 20552 • (202) 906-5650



                                                        April 19, 2011



MEMORANDUM FOR:               Crowe Horwath, LLP
                              Contractor to Treasury Office of Inspector General

FROM:                         Thomas A. Barnes /s/
                              Deputy Director

SUBJECT:                      Draft Audit Report on the Material Loss Review (MLR) of
                              Greater Atlantic Bank


Thank you for the opportunity to comment on the draft Material Loss Review Report (Report)
for Greater Atlantic Bank prepared by Crowe Horwath, LLP for the Department of the Treasury
Office of Inspector General (OIG). The stated objectives of the Report were to determine the
causes of Greater Atlantic’s failure and to evaluate the Office of Thrift Supervision’s (OTS)
supervision of the Bank. The Report concluded that Greater Atlantic failed due to the Bank’s
inability to generate core earnings from its banking operations, its reliance on wholesale funding
sources, its risk exposure to, and loan losses from, commercial construction, commercial real
estate and land development loans, and the decline in the value of its investment portfolio. Net
losses caused capital levels to erode and the Bank was unable to consummate a planned sale.

The Report notes that OTS identified significant problems at Greater Atlantic, including the
Bank’s insufficient core earnings, eroding capital position and poor financial condition, and
management’s lack of ability to implement corrective actions. However, OTS did not take a
formal enforcement action against Greater Atlantic until April 25, 2008, when an Order to Cease
and Desist became effective. OTS did not pursue formal enforcement action in 2007 in
consideration of the proposed sale of Greater Atlantic to another bank, which ultimately failed to
close. The Report recommends that the Director of OTS, in accordance with OTS policy, ensure
that issues which have been previously included in informal enforcement actions and have not
been adequately addressed by thrift management be elevated to formal enforcement action.

We acknowledge and concur with the conclusions and the recommendation in the Report. OTS
issued a revised enforcement action policy under cover of Regulatory Bulletin (RB) 37-23, dated
July 18, 2008. The enforcement action policy was incorporated in OTS Examinations Handbook
Section 080 and requires, among other things, that formal action be considered for CAMELS
composite 3 rated institutions when there is uncertainty of management’s ability or willingness
to take appropriate corrective actions, the Management component is rated 3 or below, the thrift
is not in compliance with prior commitments, its overall condition is rapidly deteriorating, and/or
a composite 3 rating has continued for two examinations after informal action has been taken.
In addition, OTS has adopted enforcement procedures that require all recommendations
regarding enforcement actions against an institution, including recommendations for no further
action, be brought to the OTS Washington Enforcement Review Committee for determination in
order to ensure compliance with the OTS policy and consistency among all OTS Regions. We
believe the policies and procedures that OTS has put in place fully address the recommendation
contained in the Report.

Thank you again for the opportunity to review and respond to the draft Report. OTS appreciates
the professionalism and courtesies provided by your staff on behalf of the Office of Inspector
General.
    Section II

Report Distribution
Department of the Treasury
U




        Office of Strategic Planning and Performance
        Management
        Office of Accounting and Internal Control

Office of Thrift Supervision
U




        Acting Director
        Liaison Officer

Office of Management and Budget
U




        OIG Budget Examiner

United States Senate
U




        Chairman and Ranking Member
        Committee on Banking, Housing, and Urban Affairs

        Chairman and Ranking Member
        Committee on Finance

U.S. House of Representatives
U




        Chairman and Ranking Member
        Committee on Financial Services

Federal Deposit Insurance Corporation
U




        Chairman
        Inspector General

U.S. Government Accountability Office
U




        Comptroller General of the United States




Material Loss Review of Greater Atlantic Bank          Section II
(OIG-11-069)
